No. 20-222
In the Supreme Court of the United
__________________

States

GOLDMAN SACHS GROUP, INC., ET AL.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the United States Court
of Appeals for the Second Circuit

__________________

Brief of Amici Curiae Securities and Financial
Markets Association, Bank Policy Institute, American
Bankers Association, U.S. Chamber of Commerce, and
American Property Casualty Insurance Association
in Support of Petitioners

__________________

Jonathan K. Youngwood
Counsel of Record
Craig S. Waldman
Joshua Polster
Daniel Owsley
SIMPSON THACHER &
BARTLETT LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
JYoungwood@stblaw.com

Ira D. Hammerman
Kevin Carroll
SECURITIES INDUSTRY AND
FINANCIAL MARKETS ASSOCIATION
1101 New York Ave., N.W.
Washington, D.C. 20005

Gregg Rozansky
BANK POLICY INSTITUTE
600 13th Street, NW
Washington, DC 20005

Dawn Causey
AMERICAN BANKERS ASSOCIATION
1120 Connecticut Avenue NW
Washington, DC 20036

Daryl Joseffer
Jonathan Urick
U.S. CHAMBER OF COMMERCE
1615 H Street, NW
Washington, DC 20062-2000

Kenneth Stoller
AMERICAN PROPERTY CASUALTY
INSURANCE ASSOCIATION
555 12th Street, NW, Suite 550
Washington, DC 20004

Counsel for Amici Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

THE CHALLENGED STATEMENTS IN
THIS
CASE ARE GENERAL,
ASPIRATIONAL, AND OF THE KIND
COMMONLY
MADE
IN
THE
MARKETPLACE . . . . . . . . . . . . . . . . . . . . . . . 4

II.

A COURT SHOULD BE PERMITTED TO
CONSIDER THE NATURE OF THE
ALLEGED MISREPRESENTATIONS
WHEN EVALUATING WHETHER THE
DEFENDANT HAS REBUTTED THE
BASIC PRESUMPTION . . . . . . . . . . . . . . . . . 9

III.

THE SECOND CIRCUIT DECISION WILL
RESULT IN UNWARRANTED CLASS
LITIGATION
IN
INFLATIONMAINTENANCE CASES . . . . . . . . . . . . . . . 15

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

ii
TABLE OF AUTHORITIES
CASES
Allstate Corp. Sec. Litig.,
966 F.3d 595 (7th Cir. 2020). . . . . . . . . . . . . . . . 14
Basic Inc. v. Levinson,
485 U.S. 224 (1988). . . . . . . . . . . . . . . . . . . passim
Castano v. Am. Tobacco Co.,
84 F.3d 734 (5th Cir. 1996). . . . . . . . . . . . . . . . . 17
City of Pontiac Policemen’s and Firemen’s Ret. Sys.
v. UBS AG, 752 F.3d 173 (2d Cir. 2014) . . . . . . . 8
Comcast Corp. v. Behrend,
569 U.S. 27 (2013). . . . . . . . . . . . . . . . . . . . . . . . 14
ECA, Local 134 IBEW Joint Pension Trust of
Chicago v. JP Morgan Chase Co.,
553 F.3d 187 (2d Cir. 2009) . . . . . . . . . . . . . . . 8, 9
Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018). . . . . . . . . . . . . . . . . . . . . 17
Erica P. John Fund, Inc. v. Halliburton Co.,
309 F.R.D. 251 (N.D. Tex. 2015) . . . . . . . . . 10, 16
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014). . . . . . . . . . . . . . . . . . . passim
Hevesi v. Citigroup Inc.,
366 F.3d 70 (2d Cir. 2004) . . . . . . . . . . . . . . . . . 17
IBEW Local 98 Pension Fund v. Best Buy Co.,
818 F.3d 775 (8th Cir. 2016). . . . . . . . . . . . . 10, 16

iii
In re Finisar Corp. Sec. Litig.,
No. 11-cv-01252, 2017 WL 6026244
(N.D. Cal. Dec. 5, 2017) . . . . . . . . . . . . . . . . . . . 10
In re Intuitive Surgical Sec. Litig.,
No. 13-cv-01920, 2016 WL 7425926
(N.D. Cal. Dec. 22, 2016) . . . . . . . . . . . . . . . . . . 10
Indiana State Dist. Council of Laborers & Hod
Carriers Pension & Welfare Fund v. Omnicare,
Inc., 583 F.3d 935 (6th Cir. 2009) . . . . . . . . . . . . 7
Ohio Pub. Employees Ret. Sys. v. Fed. Home Loan
Mortg. Corp., No. 08-cv-0160, 2018 WL 3861840
(N.D. Ohio Aug. 14, 2018). . . . . . . . . . . . . . . . . . 10
Plymouth Cty. Ret. Sys. v. Patterson Companies,
Inc., Civ. No. 18-871, 2020 WL 5757695
(D. Minn. Sept. 28, 2020) . . . . . . . . . . . . . . . . . . 11
Shady Grove Orthopedic Associates, P.A. v. Allstate
Ins. Co., 559 U.S. 393 (2010) . . . . . . . . . . . . . . . 17
Singh v. Cigna Corp.,
918 F.3d 57 (2d Cir. 2019) . . . . . . . . . . . . . . . . . . 8
Waggoner v. Barclays PLC,
875 F.3d 79 (2d Cir. 2017) . . . . . . . . . . . . . . . . . 10
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011). . . . . . . . . . . . . . . . . . . . . . . 14
OTHER AUTHORITIES
2020 Midyear Assessment, 13
(2020),
https://www.cornerstone.com/Publications/Rep
orts/2020-Securities-Class-Action-Filings-2020Midyear-Assessment. . . . . . . . . . . . . . . . . . . . . . 16

iv
Congress, the Supreme Court, and the Rise of
Securities-Fraud Class Actions, 132 Harv. L.
Rev. 1067 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Cornerstone Research, Securities Class Action
Filings 2019 Year in Review, 16 (2020),
https://www.cornerstone.com/Publications/Rep
orts/Securities-Class-Action-Filings-2019-Yearin-Review. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Cornerstone Research, Securities Class Action
Filings 2020 Midyear Assessment, 13 (2020),
https://www.cornerstone.com/Publications/Rep
orts/2020-Securities-Class-Action-Filings-2020Midyear-Assessment. . . . . . . . . . . . . . . . . . . . . . 17
U.S. Chamber Institute for Legal Reform,
Containing the Contagion: Proposals to Reform
the Broken Securities Class Action System 10
(February 25, 2019), https://instituteforlegalrefo
rm.com/research/containing-the-contagionproposals-to-reform-the-broken-securities-classaction-system . . . . . . . . . . . . . . . . . . . . . . . . 17, 18

1
INTEREST OF AMICI CURIAE1
The Securities Industry and Financial Markets
Association (“SIFMA”) is a securities industry trade
association representing the interests of hundreds of
securities firms, banks, and asset managers. Its
mission is to support a strong financial industry, while
promoting investor opportunity, capital formation, job
creation, economic growth, and trust and confidence in
the financial markets. SIFMA is the United States
regional member of the Global Financial Markets
Association.
The Bank Policy Institute is a nonpartisan public
policy, research, and advocacy group, representing the
nation’s leading banks and their customers. BPI’s
members include universal banks, regional banks, and
the major foreign banks doing business in the United
States. Collectively, BPI’s members employ almost two
million Americans, make nearly half of the nation’s
small business loans, and are an engine of financial
innovation and economic growth.
American Bankers Association (the “ABA”) is the
principal national trade association of the financial
services industry in the United States. Founded in
1875, the ABA is the voice for the nation’s $13 trillion
banking industry and its million employees. ABA

1

Pursuant to Rule 37.6, counsel for all parties have provided
written consent to the filing of this brief. No counsel for a party
authored this brief in whole or in part, and no person or entity,
other than amici curiae, their members, and their counsel, made
a monetary contribution to the preparation or submission of this
brief.

2
members are located in each of the fifty States and the
District of Columbia, and include financial institutions
of all sizes and types, both large and small.
The Chamber of Commerce of the United States of
America (the “Chamber”) is the Nation’s largest
business federation. It directly represents 300,000
members and indirectly represents the interests of
approximately 3 million businesses, trade, and
professional organizations of every size, in every sector,
and from every region of the United States. An
important function of the Chamber is to represent the
interests of its members in matters before Congress,
the Executive Branch, and the courts. To that end, the
Chamber regularly files amicus curiae briefs in cases
that raise issues of concern to the Nation’s business
community. Many of the Chamber’s members are
companies subject to the U.S. securities laws who
would be adversely affected if the decision below is not
corrected.
American Property Casualty Insurance Association
(“APCIA” and, together with SIFMA, BPI, the ABA,
and the Chamber, the “Amici”) is the primary national
trade association for home, auto, and business insurers.
APCIA promotes and protects the viability of private
competition for the benefit of consumers and insurers,
with a legacy dating back 150 years. APCIA members
represent all sizes, structures, and regions—protecting
families, communities, and businesses in the U.S. and
across the globe.
The Amici have a substantial interest in the issues
presented in this case. The precedent set below by the
Second Circuit contradicts this Court’s guidance that

3
defendants may rebut the presumption of classwide
reliance at the class certification stage, threatens
unwarranted class litigation from plaintiffs proceeding
under an inflation-maintenance theory, and could
subject the Amici’s membership to runaway class
certification.
INTRODUCTION AND SUMMARY OF
ARGUMENT
This case presents questions of profound importance
to the Amici’s members. The decision reached by the
Second Circuit threatens to make the presumption
established in Basic Inc. v. Levinson, 485 U.S. 224
(1988) effectively irrebuttable, burdening companies
and their shareholders with meritless claims based on
generic statements which have no price impact.
The Plaintiffs in this case allege that generic,
aspirational statements contained in Goldman Sachs
Group, Inc.’s (“Goldman’s”) public filings misled the
market and artificially maintained an inflated price for
Goldman’s stock. These statements consisted of vague
assertions such as “[o]ur clients’ interests always come
first.” The Second Circuit held that the vague nature
of statements such as these could not be considered at
the class certification stage in determining whether
Defendants had sufficiently demonstrated under Basic
that the alleged misstatements did not affect the stock
price. This holding contradicts this Court’s precedent
that a court may not “artificially limit” the evidence
considered at class certification. Halliburton Co. v.
Erica P. John Fund, Inc., 573 U.S. 258, 283 (2014)
(Halliburton II). As explained by Judge Sullivan in
dissent, when assessing price impact, the statements

4
themselves cannot be ignored, particularly where the
statements are so generalized as to be unlikely to be
incorporated into the stock price. A court should be
“free to consider the alleged misrepresentations in
order to assess their impact on price.” Pet. App. 45a.
Countless companies, including members of the
Amici, make generic aspirational statements that could
be used as grist for inflation-maintenance claims
following any negative corporate announcement
causing a stock price drop. If defendants are not
provided a legitimate opportunity to rebut the Basic
presumption, including by reference to the generic and
aspirational nature of the alleged fraudulent
statements at issue, there is a substantial risk of nearautomatic class certification, leading to potential
runaway liability and mounting financial pressure for
companies and their shareholders to pay on alleged
misstatements that had no market impact.
ARGUMENT
I.

THE CHALLENGED STATEMENTS IN
THIS
CASE
ARE
GENERAL,
ASPIRATIONAL, AND OF THE KIND
COMMONLY
MADE
IN
THE
MARKETPLACE

Plaintiffs proceed on the “inflation-maintenance”
theory, which this Court has never endorsed. Under
this theory, Plaintiffs argue that Goldman made
certain false statements in its Annual Reports and
Form 10-K filings published between 2007 and 2010,
which fooled the market into overvaluing Goldman’s
stock. The alleged misstatements do not refer to any

5
particular product line, transaction, or practice
whatsoever, let alone to the firm’s sponsorship or
trading in collateralized debt obligations or other
mortgage-related instruments. Although Plaintiffs
concede that Goldman’s stock price did not increase
following any of these statements, they allege that the
statements nonetheless maintained an inflated stock
price until 2010, when the price fell following reports of
government enforcement activity against Goldman
alleging that it failed to adequately disclose conflicts in
the mortgage-related transaction space. Plaintiffs
allege that the announcement of possible federal
investigations revealed to the market that the generic
and vague statements were false.
Many of the statements are general descriptions in
the “Business Principles” section of Goldman’s Annual
Reports. Examples include:
• “We are dedicated to complying fully with the
letter and spirit of the laws, rules and ethical
principles that govern us. Our continued
success depends upon unswerving adherence to
this standard.”
• “Integrity and honesty are at the heart of our
business.”
• “Our clients’ interests always come first. Our
experience shows that if we serve our clients
well, our own success will follow.”
J.A. 31-33.
The other challenged statements are contained in
the “Risk Factors” section of Goldman’s Form 10-K

6
filings. Like the business principles statements, the
risk factors statements are general and non-specific.
They do not refer to any particular conflicts or conflict
avoidance procedures and also make no guarantee that
Goldman will be able to avoid or resolve all conflicts of
interest. Examples include:
• “Conflicts of interest are increasing and a failure
to appropriately deal with conflicts of interest
could adversely affect our businesses. Our
reputation is one of our most important assets.
As we have expanded the scope of our businesses
and our client base, we increasingly have to
address potential conflicts of interest . . . .”
• “We have extensive procedures and controls that
are designed to address conflicts of interest . . . .”
J.A. 27, 29.
Statements like these are ubiquitous in the
marketplace. Companies of all kinds, including the
Amici’s members, often make general, aspirational
statements like Goldman’s. Companies make such
statements for a variety of reasons, including to
motivate employees and affirm organizational culture.
J.A. 588-89.
The statements communicate an
organization’s goals and principles to key stakeholders,
including customers, employees, and investors. J.A.
588.
Examples of similar statements made by large
financial institutions and Fortune 500 firms are
innumerable. A selected few are identified below:

7
• “Our brand and reputation are key assets of our
Company.”
• “Our . . . reputation and experience are among
this company’s strongest advantages.”
• “Our reputation is one of our most important
assets.”
• “Our continued success is substantially
dependent on . . . the reputation we have built
over many years . . . .”
• “[Our] success is based on creating innovative,
high-quality products and services and on
demonstrating integrity in every business
interaction.”
• “[W]e believe our success depends on
maintaining the highest ethical and moral
standards everywhere we operate. That focus on
integrity starts at the top.”
• “Management of potential conflicts of interests
has become increasingly complex as we expand
our business activities through more numerous
transactions, obligations and interests with and
among our clients.”
• “Our businesses depend on our strong reputation
and the value of [our] brand.”
J.A. 591, 597-603; see also Indiana State Dist.
Council of Laborers & Hod Carriers Pension & Welfare
Fund v. Omnicare, Inc., 583 F.3d 935, 944 (6th Cir.
2009) (“vague” and “loosely optimistic” affirmations are
“ubiquitous” and “numbingly familiar in the

8
marketplace”); ECA, Local 134 IBEW Joint Pension
Trust of Chicago v. JP Morgan Chase Co., 553 F.3d
187, 206 (2d Cir. 2009) (statements about defendant’s
integrity and risk management were “so general” that
“[n]o investor would take such statements seriously in
assessing a potential investment, for the simple fact
that almost every investment bank makes these
statements”).
Statements similar to Goldman’s concerning the
existence of procedures to manage conflicts of interest
are also commonplace in the market. See, e.g., J.A. 602
(“The failure of the Firm to deal, or to appear to fail to
deal, with various issues that could give rise to
reputational risk could cause harm to the Firm and its
business prospects. These include, but are not limited
to, appropriately dealing with potential conflicts of
interest”).
The statements challenged by Plaintiffs are general,
aspirational, and ubiquitous. The Second Circuit itself
has held investors usually do not consider such
statements when buying and selling stock. See, e.g.,
Singh v. Cigna Corp., 918 F.3d 57, 60-61 (2d Cir. 2019)
(holding that general statements about Cigna’s
reputation, integrity, and compliance efforts contained
in its Code of Ethics and Form 10-Ks would not be
relied upon by a reasonable investor); City of Pontiac
Policemen’s and Firemen’s Ret. Sys. v. UBS AG, 752
F.3d 173, 183 (2d Cir. 2014) (general statements about
reputation, integrity, and compliance with ethical
norms are too general to cause a reasonable investor to
rely upon them) (internal quotation marks omitted);
ECA, Local 134 IBEW Joint Pension Trust of Chicago

9
v. JP Morgan Chase Co., 553 F.3d 187, 206 (2d Cir.
2009) (the statement that defendant “set the standard
for best practices in risk management techniques . . . is
so general that a reasonable investor would not depend
on it as a guarantee that [defendant] would never take
a step that might adversely affect its reputation”).
II.

A COURT SHOULD BE PERMITTED TO
CONSIDER THE NATURE OF THE
ALLEGED MISREPRESENTATIONS WHEN
EVALUATING
WHETHER
THE
DEFENDANT HAS REBUTTED THE BASIC
PRESUMPTION

In Basic, this Court recognized that classwide
reliance may be presumed if the plaintiffs demonstrate
that: (1) the alleged misrepresentations were material,
publicly known, and would induce an investor to
misjudge the share value, (2) the stock traded in an
efficient market, and (3) the plaintiff traded the stock
between the time the alleged misrepresentations were
made and the truth was revealed. 485 U.S. at 246-28
n.27. Importantly, the Basic presumption is rebuttable.
As stated in Halliburton II, 573 U.S. at 284, defendants
“must be afforded an opportunity to rebut” the Basic
presumption “through evidence that an alleged
misrepresentation did not actually affect the market
price of the stock.” Thus, as applied to Plaintiffs’
inflation-maintenance theory, a court considers at the
class certification stage whether the evidence provided
by defendant severs the link between the statements
alleged to have maintained an inflated share price and
the share price itself.

10
However, the Basic presumption as applied has very
rarely been rebuttable in practice, particularly in
inflation-maintenance cases. Even in the wake of
Halliburton II, which explicitly held that defendants
have the ability to rebut the presumption of classwide
reliance by showing a lack of price impact, in virtually
every federal case involving inflation-maintenance
theories, courts have held that defendants failed to
rebut the Basic presumption.2 In fact, the Amici are
aware of only a small handful of cases decided since
Halliburton II in which defendants successfully
rebutted the Basic presumption even in part, through
a showing of a lack of price impact.3
In some cases, despite the evidence put forward by
defendants showing a lack of price impact, district
courts hold that the evidence does not establish that
the price decline was not caused “at least in part” by
the disclosure of alleged misrepresentations or fraud.
See, e.g., Waggoner v. Barclays PLC, 875 F.3d 79, 92
(2d Cir. 2017). Establishing a lack of so called “backend” price impact—that is, that the stock price was not
affected following the alleged corrective disclosure—

2

Note, Congress, the Supreme Court, and the Rise of SecuritiesFraud Class Actions, 132 Harv. L. Rev. 1067, 1077 (2019).
3

See IBEW Local 98 Pension Fund v. Best Buy Co., 818 F.3d 775
(8th Cir. 2016); Ohio Pub. Employees Ret. Sys. v. Fed. Home Loan
Mortg. Corp., No. 08-cv-0160, 2018 WL 3861840 (N.D. Ohio Aug.
14, 2018); In re Finisar Corp. Sec. Litig., No. 11-cv-01252, 2017 WL
6026244 (N.D. Cal. Dec. 5, 2017); In re Intuitive Surgical Sec.
Litig., No. 13-cv-01920, 2016 WL 7425926 (N.D. Cal. Dec. 22,
2016); Erica P. John Fund, Inc. v. Halliburton Co., 309 F.R.D. 251
(N.D. Tex. 2015).

11
has proven an extremely difficult burden for
defendants to carry.
Thus the burden facing
defendants in inflation-maintenance cases is even more
difficult that other cases, as even if defendants can
show (as Goldman did here) that the alleged
misrepresentations had no impact on the relevant stock
price, they must nonetheless also prove the negative
that no portion of the change in stock price following an
alleged corrective disclosure was due to the correction
of the supposed misrepresentations. In one recent
decision, defendants presented evidence showing that
none of the alleged misrepresentations had any
statistically significant price impact when they were
made, and on 40% of the alleged misrepresentation
dates, the stock price actually decreased. Plymouth
Cty. Ret. Sys. v. Patterson Companies, Inc., Civ. No. 18871, 2020 WL 5757695, at *11 (D. Minn. Sept. 28,
2020). However, the district court held that despite the
lack of front-end price impact, defendants failed to
establish a lack of back-end price impact because their
evidence was insufficient to show that at least some of
the price decline was due to “information other than
revelation of antitrust conduct.” Plymouth, 2020 WL
5757695, at *13. What is more, the district court also
held that consideration of whether the market was
already aware of the antitrust allegations against
defendants, and thus whether the price decline was
actually tied to a correction of the alleged
misrepresentations, was a merits issue not for
consideration at the class certification stage.
Plymouth, 2020 WL 5757695 at *13.
In the wake of Halliburton II, despite this Court’s
guidance, it therefore seems that the Basic

12
presumption has proven nearly irrebuttable. The
decision below takes this even further, stressing that
defendants bear the ultimate burden of persuasion in
rebutting the Basic presumption, and that a court
cannot consider the nature of the misrepresentations
themselves. As a result, the Second Circuit held that
Defendants failed to rebut the Basic presumption
despite robust evidence. Defendants presented an
event study showing no price impact. Defendants also
showed that before any of the alleged corrective
disclosure dates in 2010, numerous prior disclosures
publicized the existence and risk of conflicts of
interest—none of which had any effect on the stock
price (indeed, some of the challenged statements
themselves even warned of the risk of conflicts of
interest). This evidence was put forward to show that
vague and vacuous statements like “[i]ntegrity and
honesty are at the heart of our business” did not have
any price impact, because they did not trick the
marketplace into buying Goldman stock at an
artificially inflated price.
As explained by Judge Sullivan in his dissent:
“Candidly, I don’t see how a reviewing court can ignore
the alleged misrepresentations when assessing price
impact. Here, the obvious explanation for why the
share price didn’t move after 36 separate news stories
on the subject of Goldman’s conflicts is that no
reasonable investor would have attached any
significance to the generic statements on which
Plaintiffs’ claims are based.” Pet. App. 44a-45a.
Despite this, the Second Circuit majority’s decision
would bar courts from considering the nature of the

13
alleged misstatements in assessing whether defendants
rebutted the Basic presumption. The Second Circuit
reasoned that a court cannot consider the nature of the
alleged misstatements when analyzing their price
impact without veering too closely into a materiality
determination that is inappropriate at the class
certification stage. But this is not so.
The Second Circuit’s holding is inconsistent with
this Court’s precedent. It also creates a standard that
is difficult to apply in practice. As Judge Sullivan noted
in dissent, a “rigid compartmentalization” of the price
impact and merits analyses is neither possible nor
required by Amgen or Halliburton II. Pet. App., 45a.
It is “fair for [a] court to consider the nature of the
alleged misstatements in assessing whether and why
the misrepresentations did not in fact affect the market
price of Goldman stock.” Pet. App., 44a (internal
quotation marks omitted). As further noted by Judge
Sullivan, “[o]nce a defendant has challenged the Basic
presumption and put forth evidence demonstrating
that the misrepresentation did not affect share price, a
reviewing court is free to consider the alleged
misrepresentations in order to assess their impact on
price. The mere fact that such an inquiry ‘resembles’ an
assessment of materiality does not make it improper.”
Pet. App. 45a.
It is not disputed that materiality is a consideration
for the merits stage rather than the class certification
stage. But this does not mean that evidence relevant
to price impact which may also be relevant to
materiality at the merits stage must therefore be
ignored at the class certification stage. This Court has

14
repeatedly made clear that the mere fact that evidence
may be relevant at the merits stage is not reason to
exclude it from consideration at the Rule 23 phase. In
Halliburton II the Court was faced with the question of
whether direct evidence that the statements had no
price impact could be considered at the class
certification stage, even though such evidence could
also be before the court at the merits stage. The Court
held that such evidence could be considered and that
the class certification inquiry should not be “artificially
limit[ed].” 573 U.S. at 283. In Comcast this Court
implored courts to “determin[e] that Rule 23 is
satisfied, even when that requires inquiry into the
merits of the claim,” Comcast Corp. v. Behrend, 569
U.S. 27, 35 (2013), and in Wal-Mart this Court
explained that a class certification analysis may “entail
some overlap with the merits of plaintiff’s underlying
claim.” Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338,
351 (2011). What is more, the Seventh Circuit,
applying Halliburton II in In re Allstate, made clear
that a district court “must assess evidence that may
speak directly to the forbidden merits inquiries of
materiality and loss causation, while evaluating it only
for what it reveals about the core Basic inquiry of
transaction causation.” Allstate Corp. Sec. Litig., 966
F.3d 595, 611 (7th Cir. 2020). A district court must not
refuse to consider evidence relevant to price impact at
the class certification stage simply because that
evidence also has relevance to merits considerations.
The same principle applies to the consideration of
the generic nature of the statements themselves when
assessing evidence of those statements’ price impact.
A court must not be required to close its eyes and not

15
consider the statements that are alleged to have misled
the market and maintained an inflated stock price,
when considering precisely that:
whether the
statements had an impact on the stock price. To hold
otherwise would require a court to ignore other price
impact evidence providing critical context, and would
impose an artificial limitation on evidence of price
impact in contravention of Halliburton II. Here, the
generic nature of the challenged statements should
have been considered when assessing the price impact
evidence presented by Defendants.
III.

THE SECOND CIRCUIT DECISION WILL
RESULT IN UNWARRANTED CLASS
LITIGATION
IN
INFLATIONMAINTENANCE CASES

The artificial application of judicial blinders at the
class certification stage in the majority decision below
threatens the Amici’s membership with unwarranted
class litigation. This case provides a blueprint for
enterprising Plaintiffs (and their lawyers) to use
everyday occurrences as grist for inflation-maintenance
claims. After economically significant news, such as a
company falling short of its earnings targets, an
unfavorable business development or the
announcement of enforcement activity against it, a
company’s stock price may drop. Following this price
decline, as they presumably did in this case, plaintiffs
will review years of public filings made by the company
to select statements vague and generic enough to
conceivably cover the cause for the stock decline, such
as “[o]ur reputation is one of our most important
assets,” or “[w]e are dedicated to complying fully with

16
the letter and spirit of the laws, rules and ethical
principles that govern us.” Pet. App. 4a-5a. Armed
with these statements and a subsequent stock price
drop, Plaintiffs will attempt to obtain class certification
by alleging, despite any contrary evidence presented by
defendants, that the statements served to maintain an
artificially inflated stock price.
The situation for defendants in the Second
Circuit—the most active circuit in the country for
federal securities filings4—is particularly dire because
the Second Circuit has previously held that defendants
bear the burden of persuasion at class certification to
show no price impact.
This inappropriate burden shifting becomes all the
more significant as the inflation-maintenance theory
gains prominence in securities litigation. The decision
below noted that in the wake of Halliburton II, more
than two-thirds of securities fraud plaintiffs in federal
district courts invoked the inflation-maintenance
theory when defendants tried to rebut the Basic
presumption. In nearly every inflation-maintenance
case, the court held that defendant failed to rebut the
presumption.5
4

2020 Midyear Assessment, 13 (2020), https://www.cornerstone.
com/Publications/Reports/2020-Securities-Class-Action-Filings2020-Midyear-Assessment.
5

The only two inflation-maintenance decisions the Amici are
aware of in which a court has found defendants rebutted the Basic
presumption are the district court’s decision upon remand from the
Supreme Court in Halliburton II itself, Erica P. John Fund, Inc.
v. Halliburton Co., 309 F.R.D. 251, 270 (N.D. Tex. 2015), and Best
Buy Co., 818 F.3d at 783.

17
Although a class would ultimately have to
withstand a motion for summary judgment and prove
its case at trial, these burdens alone cannot be relied on
to prevent defendant companies and their shareholders
from being functionally coerced into paying out
meritless claims. Once a class is certified, defendants
often face “hydraulic pressure” to settle and “avoid[]
the risk, however small, of potentially ruinous
liability.” Hevesi v. Citigroup Inc., 366 F.3d 70, 80 (2d
Cir. 2004); Castano v. Am. Tobacco Co., 84 F.3d 734,
746 (5th Cir. 1996) (“The risk of facing an all-ornothing verdict presents too high a risk, even when the
probability of an adverse judgment is low”). This Court
has recently acknowledged that it is “well known that
[class actions] can unfairly ‘plac[e] pressure on the
defendant to settle even unmeritorious claims.’” Epic
Systems Corp. v. Lewis, 138 S. Ct. 1612, 1632 (2018)
(citing Shady Grove Orthopedic Associates, P.A. v.
Allstate Ins. Co., 559 U.S. 393, 445, n. 3, (2010)
(Ginsburg, J., dissenting)). Studies indicate that less
than 1 percent of securities class action filings are
litigated to a verdict. Cornerstone Research, Securities
Class Action Filings 2019 Year in Review, 16 (2020),
https://www.cornerstone.com/Publications/Reports/Se
curities-Class-Action-Filings-2019-Year-in-Review;
Cornerstone Research, Securities Class Action Filings
2020 Midyear Assessment, 13 (2020), https://www.corn
erstone.com/Publications/Reports/2020-SecuritiesClass-Action-Filings-2020-Midyear-Assessment.
Event-driven securities class actions such as this one
are on the rise, and they frequently “remain viable”
despite weakness on the merits “because the potential
damages are often very high.” U.S. Chamber Institute
for Legal Reform, Containing the Contagion: Proposals

18
to Reform the Broken Securities Class Action System
10 (February 25, 2019), https://instituteforlegalreform.
com/research/containing-the-contagion-proposals-toreform-the-broken-securities-class-action-system
(internal quotation marks omitted).
The implication of the Second Circuit’s holding is
therefore that companies, including the Amici’s
membership, will be exposed to runaway class
litigation as the inflation-maintenance theory becomes
ever more widespread. Where the nature of the alleged
misstatements cannot be considered at the class
certification stage—and where the other evidence
presented by defendants is almost uniformly found to
be insufficient—it is difficult to see what could stand in
the way of class certification following any substantial
decrease in a company’s stock price. In spite of the
Court’s clear guidance in Halliburton II that the
defendants may rebut the Basic presumption with
evidence of no price impact, even if such evidence is
also relevant to the merits, the Second Circuit’s
decision threatens to render the rebuttable
presumption of classwide reliance irrebuttable.

19
CONCLUSION
The Court should reverse the decision below.
Respectfully submitted,
Jonathan K. Youngwood
Counsel of Record
Craig S. Waldman
Joshua Polster
Daniel Owsley
SIMPSON THACHER &
BARTLETT LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
JYoungwood@stblaw.com

Ira D. Hammerman
Kevin Carroll
SECURITIES INDUSTRY AND
FINANCIAL MARKETS ASSOCIATION
1101 New York Ave., N.W.
Washington, D.C. 20005

Gregg Rozansky
BANK POLICY INSTITUTE
600 13th Street, NW
Washington, DC 20005

Dawn Causey
AMERICAN BANKERS ASSOCIATION
1120 Connecticut Avenue NW
Washington, DC 20036

Daryl Joseffer
Jonathan Urick
U.S. CHAMBER OF COMMERCE
1615 H Street, NW
Washington, DC 20062-2000

Kenneth Stoller
AMERICAN PROPERTY
CASUALTY
INSURANCE ASSOCIATION
555 12th Street, NW, Suite 550
Washington, DC 20004

Counsel for Amici Curiae
Dated: February 1, 2021

